<html>
<title> - FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON THE DEPARTMENT OF DEFENSE COUNTERPROLIFERATION, COUNTERTERRORISM, AND SCIENCE AND TECHNOLOGY PRIORITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]






                         [H.A.S.C. No. 110-41]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

   DEPARTMENT OF DEFENSE COUNTERPROLIFERATION, COUNTERTERRORISM, AND 
                   SCIENCE AND TECHNOLOGY PRIORITIES

                               __________

                              HEARING HELD

                             MARCH 21, 2007

                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                  U.S. GOVERNMENT PRINTING OFFICE
44-487                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                KEN CALVERT, California
JIM MARSHALL, Georgia                JOHN KLINE, Minnesota
MARK UDALL, Colorado                 THELMA DRAKE, Virginia
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      JIM SAXTON, New Jersey
KATHY CASTOR, Florida
                 Tim McClees, Professional Staff Member
               Jenness Simler, Professional Staff Member
                     Andrew Tabler, Staff Assistant














                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, March 21, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on the Department of Defense 
  Counterproliferation, Counterterrorism, and Science and 
  Technology Priorities..........................................     1

Appendix:

Wednesday, March 21, 2007........................................    35
                              ----------                              

                       WEDNESDAY, MARCH 21, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
 THE DEPARTMENT OF DEFENSE COUNTERPROLIFERATION, COUNTERTERRORISM, AND 
                   SCIENCE AND TECHNOLOGY PRIORITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Jaggers, Terry J., Deputy Assistant Secretary of the Air Force 
  for Science, Technology and Engineering, Office of the 
  Assistant Secretary for Acquisition............................    23
Killion, Dr. Thomas H., Deputy Assistant Secretary of the Army 
  for Research and Technology....................................    20
Landay, Rear Adm. William III, USN, Chief of Naval Research, U.S. 
  Navy...........................................................    22
Tegnelia, Dr. James, Director, Defense Threat Reduction Agency...     5
Tether, Dr. Anthony J., Director, Defense Advanced Research 
  Projects Agency................................................     3
Young, Hon. John J., Jr., Director, Defense Research and 
  Engineering, U.S. Department of Defense........................ 2, 18

                                APPENDIX

Prepared Statements:

    Jaggers, Terry J.............................................   153
    Killion, Dr. Thomas H........................................   122
    Landay, Rear Adm. William III................................   135
    Tegnelia, Dr. James..........................................   104
    Tether, Dr. Anthony J........................................    67
    Young, Hon. John J., Jr......................................    39

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
 
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
 THE DEPARTMENT OF DEFENSE COUNTERPROLIFERATION, COUNTERTERRORISM, AND 
                   SCIENCE AND TECHNOLOGY PRIORITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
        Terrorism, Unconventional Threats and Capabilities 
                                              Subcommittee,
                         Washington, DC, Wednesday, March 21, 2007.
    The subcommittee met, pursuant to call, at 2:50 p.m. in 
room 2212, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. We will go ahead and get started. I apologize 
for running late. Everybody here knows how that works. We are 
allegedly going to have some more votes here in an hour to 2 
hours, so I wanted to get started quickly. I will just make a 
couple brief comments, recognize Mr. Thornberry and move 
forward. We have two panels of witnesses today to discuss the 
science and technology (S&T) budget within Department of 
Defense (DOD) and science and technology projects focussing 
particularly on efforts to combat weapons of mass destruction.
    I will introduce the first panel, and we have with us the 
Honorable John Young, who is Director of the Defense Research 
and Engineering (DDRE) Department, the DOD; Dr. James Tegnelia, 
Director, Defense Threat Reduction Agency (DTRA), and also the 
Director for Combating Weapons of Mass Destruction, U.S. 
Strategic Command (STRATCOM); and Dr. Anthony Tether, who is 
the Director of DARPA, Defense Advanced Research Projects 
Agency. We are very interested in your testimony, science and 
technology becoming an increasingly important component of our 
ability to defend ourselves and also properly arm our military. 
I am very interested in the projects that you have going and 
how we can help make the proper investments in research, 
engineering and development and also how we can take that 
research, engineering and development and as quickly as 
possible, translate it into equipment for our soldiers in the 
field, amongst other topics.
    And with that, I will turn it over to the ranking member of 
the committee, Mr. Thornberry, for any opening comments he may 
have.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman. I welcome the 
witnesses. I agree with you on the importance of the topic, and 
I am concerned about the Administration's request as far as 
dollar values. Congress significantly increased this area last 
year and yet the budget request this year seems to be back down 
again. I know in your testimony, a number of you tried to put 
the best face you could on that. Looks still hard to justify to 
me, but I look forward to hearing your testimony as well as 
hearing about some of the specific programs.
    Mr. Smith. Thank you very much. And with that, we will turn 
it over to Mr. Young.

    STATEMENT OF HON. JOHN J. YOUNG, JR., DIRECTOR, DEFENSE 
      RESEARCH AND ENGINEERING, U.S. DEPARTMENT OF DEFENSE

    Mr. Young. Chairman Smith, distinguished members of the 
subcommittee, I appreciate the chance to appear before you on 
the panel to discuss the Defense Department's fiscal year 2008 
research and engineering efforts on the efforts of 
counterproliferation and counterterrorism. I will reserve my 
comments on the broader DOD science and technology program for 
the second panel discussion. I would ask that my written 
statement appear at the appropriate place in your formal 
record. During my past year as the Director of Defense Research 
and Engineering, the entire science and technology team has 
actively worked to address many of the conclusions of the 
Defense Department's 2006 Quadrennial Defense Review (QDR). As 
you are doing with this hearing, the QDR counterproliferation 
(CP) and counterterrorism (CT). The QDR described the shift of 
the United States's strategic environment over the last two 
decades.
    The threat has evolved from a few nation state threats to 
decentralized network threats from nonstate entities, from 
single-focus threats to multiple complex challenges, from one-
size-fits-all deterrents to tailored deterrents for rogue 
powers, terrorists networks and near-term competitors. The DOD 
science and technology program should change in response to 
this new environment and the associated demand for new 
capabilities. Countering the proliferation of weapons of mass 
destruction and the capabilities of terrorist networks requires 
totally new and enhanced capabilities in the broader area of 
censors, persistent surveillance, network management, 
information mining, cultural understanding, tagging tracking 
and locating, biometrics and other areas.
    We are making adjustments to the DOD S&T portfolio to meet 
this changing threat. I am pleased to be with the directors of 
the Defense Threat Reduction Agency and Defense Advanced 
Research Projects Agency, the two organization playing a 
primary role in developing the technologies to address 
proliferation and terrorism. I am sure they will outline 
specific CP and CT efforts within their respective agencies.
    In addition to DTRA and DARPA, the individual services 
through their respective S&T programs are making significant 
contributions to counterterrorism and counterproliferation 
capabilities, and those should come up in the second panel. I 
want to highlight some key Office of Secretary of Defense (OSD) 
programs which Congress has supported because they are vital 
tools for the war on terrorism and counterproliferation. Our 
adversaries in these areas are extremely agile, highly adaptive 
and use any and all available technology. Thus, we have seen a 
much greater need to develop, adapt and harvest technology as 
fast as possible. Congress's support of our rapid reaction 
programs is critical to allowing the Defense Department to work 
with agility and short timelines.
    The S&T efforts are the rapid action technology office and 
the quick reaction fund are essential to our warfighters who 
are daily engaged in the war on terrorism. These programs 
complement each other with each focussing on a specific part of 
this challenge. In the global war on terror, our adversaries 
are learning and adapting quickly as this Nation employs our 
best technology, weapons systems tools and tactics. This 
reality adds new importance and urgency to the work of every 
member of the Nation's defense technology and acquisition team.
    I am grateful for Congress's support of the budgets and 
programs which allow this team to deliver results for our 
warfighters.
    Mr. Smith. Thank you very much.
    [The prepared statement of Mr. Young can be found in the 
Appendix on page 39.]
    Mr. Smith. Dr. Tether.

STATEMENT OF DR. ANTHONY J. TETHER, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Tether. Thank you for inviting me today to testify 
about DARPA's efforts. My written testimony summarizes our 
plans and activities across all our strategic thrusts, and I 
submit it for the record. As requested, my remarks today will 
focus on what we are doing in the areas of counterproliferation 
and counterterrorism. With respect to counterproliferation and 
our strategic thrusts in the ``Detection, Characterization and 
Assessment of Underground Structures'' in part of ``Urban Area 
Operations'' is very much on point. Our adversaries are well 
aware of our Intelligence Surveillance Reconnaissance (ISR) 
capabilities and global reach, so we should expect them to 
continue to build facilities, underground and above ground to 
hide and protect certain activities, including weapons of mass 
destruction (WMD).
    In response, DARPA is developing a variety of sensor 
technologies and systems, seismic, acoustic, electromagnetic, 
optical, and chemical to find, characterize and conduct pre and 
post-strike assessments of these structures.
    While much of our work in this area is classified, I can 
tell you that we are developing sensor systems with orders-of-
magnitude better performance, emphasizing clutter rejection in 
very complex environments. With respect to counterterrorism, 
our strategic thrust in urban operations is developing 
technical solutions to finding and countering adversaries in 
urban clutter which are often applicable to the problem of 
finding terrorists in the clutter of everyday living.
    For example, our Advanced Soldier Sensor Information System 
and Technology program, ASSIST, is currently improving the 
intelligence gathered and used by our ground troops. It will 
allow patrols to refer to and add to the collective experience 
of other patrols and specific neighborhoods. Such cop-on-the-
beat intelligence is very useful when you are looking for a 
terrorist. Our Wasp micro air vehicle, from our Advanced Manned 
and Unmanned Systems thrust, is a small, quiet, reliable and 
portable unmanned aerial vehicle (UAV) designed for front line 
reconnaissance and surveillance. In fact, I have one with me, 
if you could bring that up. Wasp is ideal for small unit 
operations, both in cities and open terrain, and is an in 
operational tests overseas today.
    Now, that is a vehicle that has been in combat. That has 
flown in Iraq. It was actually--if you notice, you will see a 
little bullet hole. It was sent back to us I guess for depot 
repair. I wasn't quite sure what the Marines wanted to do with 
it. But it was shot at and then continued flying and doing its 
mission. Those vehicles--there are 200 of them in Iraq today 
with Marines in the Fallujah and Ramadi area. And at last 
count, we have over a thousand sorties, those vehicles being 
used.
    Our Tactical Language and Cultural Training systems are 
designed to teach every soldier a bit of the language and 
culture needed to interact with the local population. Such 
knowledge is key to a smooth relationship with the locals, 
which is crucial to counterterrorism. And we have to get the 
locals to have confidence enough to tell us what is going on.
    We have a very aggressive program to vastly improve machine 
language translation. Our TRANSTAC program has demonstrated the 
first two-way speech translation in Baghdad, Arabic. While 
conversations are limited to certain subjects like checkpoints, 
this technology is pointing the way to greatly easing and 
improving our work with local populations. Our Global 
Autonomous Language Exploitation, GALE program, is designed to 
translate and distill foreign language material such as TV 
shows in near real-time, and it is already accurate enough that 
translators edit GALE's output rather than retranslate the 
original material. These translation devices will greatly 
improve the speed and depth of our understanding of local 
people and their political media environment. This 
understanding will be a powerful tool in fighting terrorists 
because we will be better prepared to understand the local 
situation in real-time and to communicate our intentions to the 
local population.
    However, our flagship work in counterterrorism is 
biological warfare defense, which started at DARPA in the mid 
1990's and led to a broader strategic thrust that we call the 
Bio-Revolution. Our current drive is toward a portfolio of 
technologies needed to reduced the development time needed for 
new drugs from years to weeks. More specifically, to shorten 
the time needed from an emergence of a zero day or new pathogen 
to millions of doses of a therapy to only 16 weeks. Once we 
know what we need, we still need to manufacture millions of 
doses of it quickly. Our goal is 12 weeks instead of years at 
pennies per dose. To do this, we are looking at leveraging the 
large-scale industrial fermentation processes used in making 
enzymes as well as techniques for farming mushrooms, plants and 
shrimps for specific proteins.
    But at the end of the day, DARPA's main thrust is still 
core technology. While I have mentioned many systems today, the 
real DARPA contributions are the advanced components that come 
from investments in core technology such as materials, 
electronics, photonics, micro-systems and information 
technology.
    DARPA has a robust portfolio of programs in core 
technology, and I have no doubt they will lead to even more 
innovative and effective counterproliferation and 
counterterrorism capabilities.
    Congressman Smith, Mr. Chairman, I came to DARPA about two 
months ago and received about four hours of briefings on our 
efforts. Even then I only saw a small part of what DARPA is 
doing to keep our forces the most potent in the world. I invite 
all of you to come to DARPA to receive more detailed briefings 
if you can. But until then, I urge you all to at least scan our 
strategic plan, of which you all have a copy in front of you on 
your desk, which will give you a better sense of the breadth of 
our plans and our ambitions. And with that, I will be glad to 
answer your questions.
    Mr. Smith. Thank you very much.
    [The prepared statement of Dr. Tether can be found in the 
Appendix on page 67.]
    Mr. Smith. Dr. Tegnelia.

   STATEMENT OF DR. JAMES TEGNELIA, DIRECTOR, DEFENSE THREAT 
                        REDUCTION AGENCY

    Dr. Tegnelia. Chairman Smith, members of the subcommittee, 
it is a pleasure to introduce to you today the research and 
development program for the Defense Threat Reduction Agency. I 
would like to cover very briefly three topics. The first topic 
is the mission of the agency and the unique capability--or the 
unique interaction that we have with the strategic Congressman. 
That is topic one. Topic two, I would like to talk to you about 
the research & development (R&D) challenges that we face in 
combating weapons of mass destruction. And then finally, I was 
asked to talk about a piece of legislation which you chartered 
in 1994 called the Counterproliferation Review Committee 
(CPRC), which allows us to report our R&D and technology and 
development activities to the Congress as we make progress and 
answer challenges in this counterproliferation area.
    Those are the three topics I would like to cover. First 
topic is let me talk about the mission of the Defense Threat 
Reduction Agency. It is a combat support agency with the sole 
purpose of combating weapons of mass destruction. Let me start 
with combat support. That means we support all of the regional 
combatant commanders in their worldwide responsibilities for 
combating weapons of mass destruction.
    In 2005, Secretary Rumsfeld appointed the strategic command 
as the lead combatant command in the war on combating weapons 
of mass destruction. That means he has the responsibility to 
develop for the regional commanders, to field for the regional 
commanders and to exercise their toolkit for fighting weapons 
of mass destruction. He has asked DTRA to support him in that 
role and we have a unit of STRATCOM in our facility at Fort 
Belvoir to perform that function. I mentioned that we combat 
weapons of mass destruction. We interpret that to mean the 
nexus of weapons of mass destruction with both terrorists and 
rogue nations and to make sure that we have the tools necessary 
to prevent the use of those weapons.
    DTRA is an organization of 2,000 people, 1,500 of them are 
Fort Belvoir, the other 500 people are in liaison offices and 
field offices in just about every time zone in the northern 
hemisphere. Those field offices mostly support our cooperative 
threat reduction activity. We have a budget of $2.7 billion, 
Mr. Thornberry, down slightly from last year. About $1 billion 
of that $2.7 billion is research and development.
    And what I would like to do is turn to my second topic, 
which are what are the challenges the agency faces particularly 
in R&D. In my testimony, which you have for the record, we 
address six challenges. Three of those challenges are what I 
would refer to as operational, and three of them are focused 
mainly on research and development. Let me just list the 
operational ones. There is more detail in the prepared 
statement. Situational awareness is an operational issue. We 
work with the intelligence community to make sure that we 
understand the threats to our forces. WMD materiel control. How 
do we work with our allies that would like to cooperate with us 
in eliminating or reducing the threat of weapons of mass 
destruction? In particular, the Nunn-Lugar program addresses 
that particular issue. And the final operational one is 
associated with supporting our Northern Command as it does its 
homeland defense responsibility. We do a lot of exercises and a 
lot of training and the like for both the National Guard and 
the Northern Command in their homeland defense-related 
activities. Those are the operational challenges.
    But I would like to do is talk about the three research and 
development challenges. The first research and development 
challenge is preventing nuclear terrorism. We addressed three 
issues associated with that nuclear terrorism threat. The first 
issue, which we work with the Department of Homeland Security 
and the Department of Energy, is in detection of nuclear 
material. How can you find a nuclear weapon? Today, our sensors 
are approximately 100 meters capability to be able to find 
something with nuclear material in it. We are looking for 
orders of magnitude increase in that capability, and we have 
some ideas related to that. The second thing that we are trying 
to do is build a national capability associated with forensics. 
If someone were to use a nuclear device, how would we determine 
where that device came from? What would we do to make sure one 
event wasn't followed immediately by other events? That is the 
subject of nuclear forensics. That responsibility also is with 
the domestic nuclear detection office in homeland security. We 
provide some important services related to that mission for 
them.
    And then, the last issue is how do you render safe a 
nuclear weapon? If you were actually to get hold of a terrorist 
device, how would you make sure that that terrorist was not 
able to initiate that device, that we could, in fact, 
demilitarize it so it was no longer a nuclear weapon? Those are 
the R&D challenges associated with combating nuclear terrorism. 
The second R&D challenge is protecting the warfighter against 
weapons of mass destruction. The particular issue that we work 
there is chemical and biological defense activity. How do you 
detect the use of a biological weapon, the chemical weapon? How 
is it that you provide therapeutics and prophylaxis to the 
individual soldier so that that person is not infected by a 
biological weapon or that you can, in fact, defeat that weapon 
or cure that disease before it kills a soldier. Those are the 
challenges that we work with on protecting the warfighter.
    In particular, we are now moving on, is it possible to 
provide radio radiological therapeutics to the individual 
soldier to help him in a nuclear environment? The last R&D 
challenge that we are associated with is helping General 
Cartwright in transforming the nuclear deterrent. We work on 
two elements of that nuclear deterrent. The first thing we do 
is provide him with hard and deeply buried target capability 
making use of conventional forces. In that regard, we work with 
DARPA to develop both categorization techniques for underground 
facilities. We also work with the Defense Intelligence Agency 
(DIA) to characterize those facilities, and we work on both 
kinetic and nonkinetic weapons for the defeat of hard and 
deeply buried targets, again, for General Cartwright.
    The second research challenge we do with regard to the 
triad is in the area of nuclear effects. The Congress has been 
very much interested in the subject of EMP, electromagnetic 
pulse. We support the committee that the Congress has chartered 
to look at the electromagnetic pulse problem. We do inspections 
of our equipment to make sure that they are in the best 
condition they can to withstand electromagnetic pulse, and we 
also have a program that we work with both the DDR&E and with 
DARPA related to hardening electronics to make sure that they 
can survive in that difficult environment.
    We just fielded one generation of hardened electronics and 
are now working together to get to the next generation of 
hardened electronics. That completes the R&D challenge. The 
last topic that I would like to address with you is, is your 
legislation associated with the counterproliferation review 
committee? That legislation was provided as part of the 1994 
authorization bill, and it set up a review committee of the 
Secretary of Defense, the Director of the Central Intelligence 
Agency (CIA), the Chairman of the Joint Chiefs of Staff, and 
the Secretary of the Department of Energy aimed at reviewing 
and establishing both the progress that we are making on 
counterproliferation technology and the challenges that remain 
ahead of us.
    If I would presume to make a recommendation to you, Mr. 
Chairman, that language has not been updated since 1994. Since 
that time and since 9/11, there are significant organizational 
changes which have occurred in the executive branch to address 
this particular problem.
    As you know, the Department of Homeland Security, my 
agency, works a lot with the new Office of the Director of 
National Intelligence, CP, Counterproliferation, the National 
Counterproliferation Center, NCPC and NCTC National 
Counterterrorism Center and their activity should be part of 
this coordination mechanism. We also now have Northern Command, 
which is a very important element in establishing what the 
priorities are for our developments of our research and 
development activity.
    We would recommend that the language be updated to be able 
to reflect the existence of these new organizations. I also 
would like to recommend--we now report on our findings once a 
year. Should we expand the membership of the CPRC to include 
those new organizations? We would request that you ask us to 
report on a biannual basis because of the scope of the effort 
that would be associated with that review. Mr. Chairman, with 
that remark, I will complete my remarks, thank you.
    [The prepared statement of Dr. Tegnelia can be found in the 
Appendix on page 104.]
    Mr. Smith. Thank you very much, gentlemen. A couple 
questions, and I will turn to my colleagues. First of all, I am 
curious about the level of coordination. There is a number of 
different agencies that have an interest in WMD, countering 
WMD, Department of Homeland Security, Department of Energy, 
Department of State. And I know they have efforts ongoing in 
those areas. How well do you coordinate? And does the strategic 
command sort of take the lead in all of that and make sure that 
we are maximizing our resources as well as our plan? If I can 
start with you, Dr. Tegnelia and Mr. Young, if you have 
comments.
    Dr. Tegnelia. Let me start off with the fact that we do an 
extensive amount of coordination, and I would suggest to you 
that it is broken up into two general areas. The first 
coordination activity is associated with a programmatic 
coordination. We spent a lot of time with the Department of 
Energy, the Department of Homeland Security. I will give you a 
specific example in just a second, and the Department of State. 
The Department of State provides us requirements with regard to 
our cooperative activities overseas.
    You may be aware of the fact that the Department of State 
has a new initiative called the Global Initiative on the 
Prevention of Nuclear Terrorism. We support them in their 
overseas-related activities and have presented to their plenary 
activities and perform activities with them. With the Domestic 
Nuclear Detection Office (DNDO), just to give you an example, 
the DNDO has members from across the executive branch of the 
Department, and DTRA is the organization that is responsible 
for making sure that the Department of Defense people are in 
the DNDO to make sure that the Department of Defense's 
requirements are, in fact, established.
    I have a personal interest in that since the top three 
people in DNDO are ex-DTRA people. And I guess I am happy about 
that, but you hate to lose the talent like that. So we do an 
extensive amount of coordination. I personally am from the 
Department of Energy on detail for the Department of Defense to 
show how that exchange goes. One last comment, we do a lot of 
exercising together. We, very oftentimes, at least once a year, 
do a series of exercises called top-off which involve all of 
the departments of the government that you mentioned in trying 
to make sure that we understand the capabilities of one another 
and we know how to work together.
    General Cartwright plays a large role in that. We just this 
week, yesterday, came off of the latest exercise which had a 
significant amount of interagency play associated with it, 
primarily related to the interdiction mission PSI, prevention 
security initiative that the Department of State operates. So 
there is an extreme amount of--I believe there is a large 
amount of interaction and coordination for that activity. Just 
as a coincidence, we have a meeting after this is over with the 
Under Secretary of State, General Cartwright and Ambassador 
Brill from NCPC and myself to try to make sure that the 
coordination keeps going. So it is a very active activity with 
it.
    Mr. Smith. Dr. Tether.
    Dr. Tether. From a research viewpoint, we have a joint 
program which is closely coordinated with DTRA. We have a 
formal memorandum of agreement (MOA) between us that kind of 
outlines cooperation, not that Jimmy and I really need the MOA, 
but it is good for everybody else that reads it to know it is 
okay to cooperate with each other. Generally, once DARPA takes 
the technological excuse off the table that something can be 
done, that is usually where we end. DTRA goes the rest of the 
way and does the intermediate development required to pass it 
on for final development to the acquisition program Joint 
Program Executive Officer for Chemical & Biological Defense 
(JPEO CB) which is under Major General Steve Reeves. There have 
been many transitions to DTRA, most notably in DARPA's work in 
very broad spectrum pathogen countermeasures which went 
directly from DARPA into DTRA's TMTI, the Transformational 
Medical Technologies Initiative.
    Our program managers regularly interact so there is more 
interaction going on, I think, than we really know, and I think 
a lot of it is, quite frankly, is one, DTRA does our 
contracting for us in this area, and quite frankly, Jimmy and I 
are good friends from 25 years. So the people know----
    Mr. Smith. That always helps.
    Dr. Tether. It always help. It is unfortunate that that has 
to be part of the chemistry, but I don't know of any other way 
sometimes for that to happen. But we participate in his 
reviews. He participates in ours. You know what, I think the 
coordination between DARPA and DTRA in this area in particular 
is very good.
    Mr. Smith. If I could, I had two other quick--I think that 
answers my question. Two other quick questions I want to get to 
before I move on to my colleagues. And specifically for you, 
Dr. Tether, on your research efforts. You talk about your 
mission being short, mid and long range in terms of doing the 
research. I am just wondering if that has changed at all, you 
know, given the pace of operations right now in the military in 
Iraq and Afghanistan, the more immediate needs, we see things 
in the field, we need them quickly, if you shifted funds toward 
more near or mid term research and away from the long term?
    Dr. Tether. I don't believe so. I have been asked that 
question. I guess we are about well balanced because I can find 
50 percent. I can put people in a room and half of them would 
say we did, and half of them would say we didn't. Whatever we 
are doing I think it is balanced.
    Mr. Smith. It would make a certain amount of sense for me, 
I mean, the question may have came out wrong, to do that, 
actually, given the short-term needs.
    Dr. Tether. Well, we definitely have gone back--first of 
all, DARPA in the early 1990's, mid 1990's was looking at--at 
that time what was called the transnational threat, the threat 
without a country, which has currently become known as a 
terrorist. And we realized at that time that there were a 
couple things, one, that the transnational threat or the 
terrorist was going to be small groups of people, that it 
wouldn't be a force-on-force fight, it wouldn't be tanks 
against tanks. And we started developing technologies in the 
90's. We also started our bio program at that time because in 
looking at the transnational threat, you say they don't have 
any infrastructure. So what kind of major WMD, if you will, 
could they bring forth? And obviously biology is one that 
doesn't take much infrastructure. So we started our bio 
program. Whether it was serendipity or just luck in some sense 
when the war started, we had already developed many 
technologies, which quite frankly were put on the shelf, 
because we got them to the point where we took the technical 
excuse off the table, but there was no urgency by anybody to go 
the rest of the way.
    So what we did do when the war started is we went back and 
we harvested those technologies. Now we did spend money, but 
the big money was spent in the 1990's. Now, let me just give 
you a couple examples. We had developed in the 1990's a 
technique to detect people being shot at, on vehicles or just 
being shot at. And we had developed it very well. It turns out 
that there is no formal requirement in the Army to know that 
you are being shot at. Still can't believe that.
    Mr. Smith. Some of the folks behind you--there is an 
informal requirement, but yes.
    Dr. Tether. But that is kind of what stopped it. When it 
came time to put the money down, there was no formal 
requirement, and that stopped it. In 2002, General Keith 
Alexander, who knew about the program and called up the office 
and said look, my guys are coming home with their vehicles all 
shot up. They didn't even know they were being shot at. I do 
remember this program that you had in the 1990's, and can you 
do something about it? And we did go and find the contractor 
and gave him some money, but compared to the development costs, 
really very small, to bring that technology, it is called 
boomerang. It is now in Iraq. It is now in Iraq and it is both 
for moving vehicles and both for stationary vehicles.
    And in fact, there is now an order that came from the Army 
to BBN, who is the contractor for 600 boomerangs, 400 of them 
being decoys just to stock because they have learned--the word 
is out that don't shoot at that vehicle or facility that has 
that boomerang because they will shoot back at you. But that is 
really what we have been doing for the most part. Yes, it has 
been a little bit extra money, but in terms of percentages, it 
really has been very small.
    Mr. Smith. And Mr. Young, as far as DDR&E is concerned, 
short, mid term, have you changed your equation at all in light 
of the Iraq War and other short-term demands?
    Mr. Young. I don't--I would probably agree with Dr. 
Tether's assessment. I think we find ourselves putting more 
money in these areas in general, but a balance between some of 
the programs I mentioned in the beginning, the Iraq reaction 
programs, seek to field technologies in 12 to 18-month cycles, 
and I could cite to you several examples that are well 
partnered with Federal Bureau of Investigation (FBI) or Bureau 
of Alcohol, Tobacco and Firearms (ATF) or Homeland Security, 
and then some initiatives that are in the budget before you 
that are really on 5 to 10-year cycles to deliver new tools in 
the space of human social cultural behavioral modeling and 
others.
    So we continue to have balance. We are working harder at 
harvesting and that sometimes takes supplemental moneys and 
other moneys, but in the core budget I think we maintain 
balance in near term and far term development efforts.
    Mr. Smith. Okay. Thank you, gentlemen. Mr. Thornberry.
    Mr. Thornberry. Thank you. Mr. Young, I would just like to 
ask you to briefly tell us where we are in efforts to make sure 
that all of the S&T money we spend across the Department of 
Defense is not only coordinated, but spent strategically so 
that it is not individual organizations' priorities that are 
driving the train, but the needs of the department as a whole.
    Mr. Young. It is a great question and a great opportunity 
to tell you we worked that process pretty hard, and there was a 
process called Reliance that had some benefits but produced a 
lot of paper and a lot of meetings, and we have changed that to 
what I believe is a more streamlined and efficient process we 
call Reliance 21, but it leads the DDR&E team to work with the 
services, but it leads the services and the agencies to work 
together.
    A few weeks ago we had a three-day strategic review with 
virtually all the witnesses you will have today presenting 
their programs, hearing other services and agency programs, and 
then within those areas, we are setting up technology focus 
teams, some of those teams look at traditional areas like 
materials to make sure we are well coordinating in getting 
taxpayer value without duplication in those areas. Some are in 
these areas like counterproliferation, where we need new 
technologies, we want to push but we want to push in a 
coordinated way. Those focus teams are going to go through the 
efforts in more detail than you can in that three-day effort, 
and then make potential recommendations for adjustment as part 
of our 2009 budget process as well as execution year changes in 
the program.
    So I could talk to you much longer but I want to tell you I 
think we are working that process very hard with a 
consciousness that we need to get maximum value for taxpayer 
dollars. We don't want to do anything twice, and we want to 
coordinate the efforts across the whole of the enterprise.
    Mr. Thornberry. So how close are we to where we need to be?
    Mr. Young. I would tell you--well, the best way to answer 
that question is to tell you, for a $10 billion science and 
technology effort, I would love to have a database that would 
let--aside from senior people have briefings--a researcher at 
any lab in DOD go in and look in a topic area and see somebody 
else has done something similar, have a discussion and see 
whether that effort needs to continue with a harvesting of the 
knowledge previously. I don't have that database. We have made 
two runs at it.
    This year's run at it has produced better data. I am 
dependent on the services and the agencies to provide that data 
set. In some cases, they have their own tools, and we are 
trying to use those tools as is, but do what you often probably 
hear about, sir, is middle wear to bridge that to a common 
system. But that is one of my highest priorities is to get a 
better database tool to ensure collaboration at the working 
level beyond high-level meetings and technology focus teams in 
certain technology areas.
    Mr. Thornberry. Makes sense. Thank you, Mr. Chairman.
    Mr. Smith. Ms. Castor.
    Ms. Castor. Thank you very much, Mr. Chairman. Gentlemen, 
with the rapid development of the Internet and our reliance on 
information technology, another asymmetric threat is that of a 
concerted attack on our information systems and networks, 
whether we are talking about banking, finance, transportation, 
communication. Could you address the--in your opinion, the 
likelihood of a widespread attack on some of the information 
systems, be they military, our own military or in the finance 
world in this country, and are any of your programs focused on 
cyber security? And are any of your programs focused on 
countering the emergence of the online terrorist movement?
    Dr. Tether. Yes. We have a major part of our program 
looking at that. Some people consider our information warfare 
as another form of WMD, and I guess it is not quite technically 
pure, but if you let it be called a weapon of mass disruption, 
then it clearly qualifies you know as an WMD weapon. We are not 
trying to necessarily save the world on the Internet, but we 
are trying to make sure that the DOD systems are protected and 
that no one can get in and basically disrupt them at the wrong 
time. And in that, we have several efforts. A lot of them are 
in that document you have there, our bridging the gap document. 
But we have found out how to handle worms, we have found out 
how to handle basically cyber attacks on ad hoc mobile systems. 
We are doing quite a bit. Unfortunately the real threats are 
not those threats. Those are the noisy threats. Those are the 
guys who come in and they want to be known. You know, they are 
the hackers and they love nothing more than bringing down 
systems. But they are almost doing it for publicity. The 
threats that are really the insidious threats are the ones that 
come into your system and don't let you know they are there, 
and those are the very difficult threats.
    And while every detail on that probably is going to be 
classified, and I would love to give you a classified briefing 
on it, let me tell you, we have major programs in trying to 
work that threat, which is the one that we worry about the 
most, you know, the enemy amongst us type----
    Ms. Castor. Can I ask a follow-up question?
    Mr. Smith. Sure.
    Ms. Castor. Is there an adequate talent pool coming out of 
our colleges and universities that are being attracted to these 
kind of positions from our engineering schools and----
    Dr. Tether. There is a----
    Ms. Castor [continuing]. To work for us? To work for you?
    Dr. Tether. I understand. And that is really the problem. 
The question, I think you are asking is, are there U.S. 
citizens? Because we have a lot of people coming out of 
colleges who are in computer science and networking but many of 
them are not U.S. citizens. They are here in the United States 
going to school. And we really worry about that. We have 
programs trying to address that shortfall. And I believe--
people will tell you that the problem is a lack of money, and I 
don't think that is the case.
    I mean, I think it is just--we just haven't come up with 
reasons, challenges to make this field exciting for kids. You 
know, to give them something that they really want to go and 
do. So we are trying hard by hiring young professors, associate 
professors. Young is not necessarily an age, young from the 
time they went and became a professor. With the whole purpose 
of trying to come up with ways to attract young people. Many 
studies have shown that the number of freshmen going into 
colleges 1999 to the year 2003 when asked what they wanted to 
do, it dropped by a factor of four for those who said they 
wanted to go into computer science. Now that is really a major 
worry.
    So we are trying hard to overcome that by coming up with 
challenge problems, and I don't think it is money. I think it 
is just imagination that we just need to come up with the 
problems that these people will be willing to come and work on. 
So far--to answer your specific question though, so far I 
haven't had a problem, but I am worried about the future.
    Mr. Young. Maybe I could add a couple comments to that. We 
have with the Congress's support a National Defense Education 
Program where we provide fellowships, graduate study 
assistance-ships to undergraduate and graduate students. We 
have been able to award 50-plus and a few more each year and 
continue those. The first 10 are now working for us. Each year 
of support comes with a year of service requirement, and we are 
growing that program. It is a modest but a role DOD plays in 
growing that talent pool.
    We put before you a new initiative to do some of the things 
that Dr. Tether mentioned, provide larger research grants to 
some of the premiere young faculty members with a bias toward 
those faculty members and have those grants last for a three- 
to five-year period, so they can train students and do work. We 
ask that all that work be--the people who work on the work be 
capable of getting security clearance and the work be 
classified if necessary.
    So it is a boost to our research program. It is a boost to 
the research opportunities for people in the academic community 
and frankly, it will be a boost to our basic research knowledge 
base. And that initiative, I think, is very important to us and 
very important to addressing the challenge you raise. It is a 
mix of things, as Tony pointed out, having good work for these 
students to do, giving them incentives to pursue the technical 
education careers and in working with them to become part of 
our team once they finish that education.
    Mr. Smith. I realize this is sort of outside of your area, 
but the other thing we need to do is on the K-12 level doing a 
better job in math, science, computer engineering. Back in my 
district, we did a career fair and exactly did that with intel, 
because a lot of it is by the time you get to the college 
level, you have lost so many of them. I think we have a good 
program. The ones that are coming out of college are the ones 
who get interested in this.
    I think we have still got some just fabulous students 
coming out, but it is too small a percentage that is going in 
in the front end, not that you are in front charge of K-12 
education, but----
    Mr. Young. If I could finish one point on the National 
Defense Education Program this year, for what we think it will 
be, depending on the size, 50 to 75 awards. We had 1,900 
applicants and 880 in the end, that turned in final complete 
full applications. So there is a pool out there. To your point, 
sir, we have a program right now, a modest initiative called 
Materials World Modules where we seek where a DOD lab or entity 
is partnered with a local community school to give them 
training materials that try to bring sports into technical 
perspective, you know, composites--use of composites for 
support materials and get them interested in that regard, and 
we have also included in this budget a shift and an expansion 
of that program, again, to try to get people at the earliest 
levels.
    I mean, DOD can play a modest role here, but I wouldn't 
tell you we are driving the train, but we do feel a need to 
play a role in attracting those students at the earliest 
possible age.
    Mr. Smith. It seems to me, if a bunch of fifth and sixth 
graders went over to DARPA and saw what you guys were doing, I 
think they would say, I want to do that. Because you are doing 
some really, really interesting stuff.
    Dr. Tether. For one thing, the last part of my written 
testimony describes some projects that really are after, just 
that we have an effort where we have, again, young professors 
that we brought in to come up with ideas. However, the 
evaluation of their ideas was not done by us. We made them go 
to high schools and brief high schools on those ideas because 
we wanted to find out what ideas were exciting to high schools.
    Mr. Smith. That is a very good idea.
    Dr. Tether. They actually came up with some really neat 
ideas, and some really strange ones, like some material that 
changes to a car when you say I want a car. Actually there is 
no reason why it can't be done. The programming is hard. But 
they are under contract, and what they have to do every quarter 
is go to a different high school in the country and explain 
what they are doing. I mean, just for that purpose.
    Mr. Smith. Mr. Saxton.
    Mr. Saxton. Thank you very much. First of all, let me 
welcome Mr. Young and Dr. Tether and Dr. Tegnelia back. We have 
been working together for many years, and it has been 
productive, not so much on our part, but for the warfighters 
that you serve and for the safety concerns that you always have 
in the front of your mind for the American people. We 
appreciate that very much, and we know that our country has 
benefited very much from the work you do.
    So thank you for what you do. And I would also like to 
thank and welcome back our old friend, Jean Reed, who I haven't 
seen here in some months since he left the Hill. You look right 
at home, Jean, and I hope you feel that way.
    Mr. Chairman and Ms. Castor, I would like to chime in where 
you left off on this high school secondary ed issue that has to 
do with developing scientists and computer scientists and 
engineers. I think this is really an important subject. And I 
came across something a year or two ago which I thought was 
quite exciting. I happen to be in New York City, and I ran 
across a couple fairly wealthy guys who were able to put $12.5 
million into a program each year, their personal money, and the 
program worked like this, it said, why is it that kids aren't 
getting involved in computer science and science and 
engineering interests in high school?
    And they concluded it is probably because teachers were 
maybe not quite as exciting in those areas as they might be. So 
they took their $25 million and each year they go to find--they 
find some college graduates who are excited about science and 
technology, and they say to them, look, if you will be a 
teacher, we will pay for your masters degree in education. You 
are already excited about science. We will pay for your degree 
in education. And we will give you a stipend while you are 
going to school so you can live.
    And then when you graduate with your master's degree, if 
you go and teach in a high school, we will give you a stipend--
I am just going to use a figure of $20,000 on top of your 
teaching salary as long as you are teaching science and math. 
And they have had great success in New York City with that 
program. An so while trying to build on their success while the 
Republicans controlled the House, I introduced a bill that 
created a national demonstration program, if you will. I 
couldn't get my Republican colleagues too interested in it, but 
maybe now we could explore it again, because it is a program 
that has shown some great results, and I think--I believe in 
it, and I believe it has been successful, and I think maybe we 
can look at it again.
    Anyway, Dr. Tegnelia, I understand the process that DTRA is 
using to pursue technologies under Transformational Medical 
Technologies Initiatives, good program.
    Dr. Tegnelia. Yes.
    Mr. Saxton. Can you tell me a little bit more about how the 
chem biodefense program would pursue emerging scientific 
breakthroughs that are happening outside the TMTI program? How 
do you keep pace with medical breakthroughs when you are 
required to use transitional acquisition procedures?
    Dr. Tegnelia. Sir, first of all, we have put a lot of 
effort into getting the TMTI program off and running. And we 
now are at the point where we have got 70-something contracts 
underway and going in that particular program. Every year we go 
back out with a broad area announcement (BAA) to relook at the 
base to make sure that if there are new ideas there, we are 
prepared to go out and fund those new ideas under the TMTI 
program.
    So we continue to keep the pipeline open for new and 
interesting ideas. The other thing that we have done because we 
are concerned about the issue that you are concerned about is 
we started a basic research program. That basic research 
program is concerned with not only therapeutics and prophylaxis 
and genetics and genomics associated with that kind of program. 
It is also into the detection business. So we brought in 26 
universities who have new ideas and new people who are in the 
process of looking at biological sciences.
    So we think that by working with the universities, by 
working with the new startup companies who are generating a lot 
of these new ideas and having continual programs which review 
that, and then working with PhRMA, as they move to put some of 
these new drugs into the market, we have a good cross-section 
of the people participating with DTRA to do that program. Jean, 
maybe you would like to comment on that as well.
    Mr. Reed. Yes, sir. If I could for just a moment----
    Mr. Smith. For the purpose of our record, if you would make 
sure you are on the mike there, and identify yourself before 
you offer the testimony.
    Mr. Reed. Yes, sir. I am Jean Reed. I am the Special 
Assistant for Chemical Biological Defense and Chemical 
Demilitarization Programs in the Office of the Secretary of 
Defense, and I have oversight for the assistant to the 
Secretary of Defense for nuclear, chemical and biological 
programs for that functional area. Reinforcing Dr. Tegnelia's 
comment, we make a great deal of use of the broad area 
announcements announcing, you know, a particular focus area 
both with the Transformational Medical Technologies Initiative, 
but also in the broader area of the totality of the core--of 
the core thrusts and the chemical biological and defense 
program to invite really the brightest and the best to 
participate in that program.
    One of the major contributions that the Congress has made 
to that program is the use of the chemical biological defense 
initiative in which money is added to the program by the 
Congress but without any fetters, if you will, in terms of 
saying to the Department, pick out those technologies that 
appear to have great technical promise and to contribute to the 
overall operational capability of the force and pursue those 
technologies as opposed to pursuing what might be a specific 
earmarked program.
    That program has contributed--that the Congress originated 
has done a great deal of good for the overall program. But 
basically, sir, we are, with the overall program strategy, then 
laying out through the broad area announcement process the 
ability to, if you will, mind what is out there.
    Mr. Saxton. So if something came along outside of the 
normal process and it looked like it was promising, it is 
something that you might be able to take a look at even though 
it doesn't fit within the construct of timelines, et cetera.
    Mr. Reed. Yes, sir. There are loads of good ideas out 
there, and we are open to hearing those ideas.
    Dr. Tegnelia. And we have several mechanisms to make sure 
that that would happen. By the way, I should mention, Dr. 
Tether is also very much investing in the biological sciences 
activity, and he is really stretching the envelope a little bit 
with regard to some of the science that he is working on.
    Mr. Saxton. Yes, sir. I am aware of some of the instances 
where they are being stretched and they are starting to show 
some results too. Thank you.
    Mr. Smith. Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman. Gentlemen, thank you. 
Lets make a quick visit to Fort Bragg. Are you all familiar 
with their group, is it the defense technology accelerator? I 
am not sure I am giving you the right name. It is a very 
interesting concept, working with particularly former special 
forces soldiers who are using private entrepreneurs and others, 
developing technology for a whole host of things. Let's talk 
about IEDs for a minute. Joint IED task force. Are you familiar 
with this group? And if yes, that is one answer. Are you, are 
you all familiar with them at all?
    Dr. Tether. Yes, I am. They have called me and talked to 
me, yes.
    Mr. Hayes. Any interaction going on there?
    Dr. Tether. Actually, in our case, we have very good 
interaction already with Special Operations Command (SOCOM) 
Fort Bragg.
    Mr. Hayes. I misspoke when I said Fort Bragg. My mind 
always says Fort Bragg, but this is outside the gate. This is a 
private.
    Dr. Tether. No. I understand. I understand. And they are 
retired, and they offered to help bridge the gap, if you will, 
between what is going on in S&T and their knowledge of the 
requirements and they are very helpful. But we are, you know, 
there is activity going on, and we are using them.
    Mr. Hayes. Okay. Well, I appreciate that. And having just 
visited there about two weeks ago, I was very much impressed by 
the number of different ideas and people that were coming to 
the table. I would think--I am sure you all get hundreds of 
cards and letters every day with great ideas, but they really 
seem to be doing a good job of vetting some technology that 
would help identify IEDs and my charge was, find me a way that 
we can explode them in the bomb maker shop, not on the road.
    So I just wanted to make sure that that was something that 
you all were looking at and again, listening to several groups 
present that morning, it would be very helpful, look at them 
even more closely if not. Of course, open hearing, IED issue 
still is the biggest threat we face. I am confident you are 
doing everything you can to----
    Dr. Tether. We have a major effort between us and Joint 
Improvised Explosive Device Defeat Organization (JIEDDO) 
basically using NTC as the--National Training Center in Fort 
Irwin, California, to address directly the moving upstream to 
try to find out the bomb makers place as opposed to each IED 
separately. As you said, it is a little difficult to say 
anything more because we might tell them what we are doing, and 
these are very smart people who undoubtedly will get a copy of 
this hearing.
    Mr. Hayes. Yeah.
    Mr. Young. Can I add copy to that?
    Mr. Hayes. Sure.
    Mr. Young. Because of the nature of that threat, which is 
very harmful to our forces, the DDR&E team we went through. The 
JIEDDO program, had had a series of meetings in the last couple 
of months to make sure that program is coordinated. To 
Congressman Thornberry's question, we brought--there is a 
defense science and technology advisory group. We brought 
JIEDDO, the chief scientist in as a member of that group so 
they are very conscious at what the service is doing and at 
that strategic review we had a month or so ago, they came and 
presented their view of the threat and then what they are 
spending because JIEDDO is spending money a lot of times on 
near-term solutions, increasingly looking at some longer term 
solutions with S&T dollars, and then counting on the services 
to make some investments in those areas and so we are working 
very hard to make sure we have as much momentum as possible in 
that space, sir.
    Mr. Hayes. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. I think what we will do now is we 
will go to our second panel. I thank Dr. Tether and Dr. 
Tegnelia for their testimony. We have votes coming up quick not 
too distant future, so I want to get the other folks up. That 
would be Dr. Killion, Admiral Landay and Mr. Jaggers, and Mr. 
Young will be on the second panel as well. Thank you very much.
    Thank you, gentlemen. I will introduce the new members of 
the panel. We have been joined by Dr. Thomas Killion, who is 
the Deputy Assistant Secretary General of the Army for Research 
and Technology, their chief scientist. Rear Admiral William 
Landay, who is the Chief of Naval Research. There is a lot more 
after that, but I will just leave it at that. Mr. Terry 
Jaggers, who is the Deputy Assistant Secretary of the Air Force 
for Science, Technology and Engineering. We will get started.
    Mr. Smith. I believe, Mr. Young, you have comments for this 
panel as well in addition to what you said before. So we will 
again begin with Mr. Young.

    STATEMENT OF HON. JOHN J. YOUNG, JR., DIRECTOR, DEFENSE 
      RESEARCH AND ENGINEERING, U.S. DEPARTMENT OF DEFENSE

    Mr. Young. Chairman Smith, thank you again very much. I 
really am grateful for the opportunity to appear and talk about 
the science and technology program of the Department of Defense 
with this committee. The second year I had the opportunity to 
appear before the Congress as the Director of Defense research 
and engineering, and I am very pleased with the direction and 
focus of the Department's science and technology program. And I 
will briefly discuss key elements with you. At the highest 
level, the Defense Department's fiscal year 2008 science and 
technology budget request of $10.77 billion represents a 
continued corporate commitment to strong science and technology 
funding during a year with difficult budgetary demands from the 
ongoing war on terror. As noted in my written statement, from 
fiscal year 2002 to 2008, the science and technology budget has 
grown eight percent in real terms, and these years are the 
seven highest DOD requests for science and technology since the 
current budget process started in 1962.
    The military services and DARPA budget and managed the bulk 
of defense science and technology funds and thus have critical 
roles to play in our program. I am glad to be here with the 
service science and technology executives who are all striving 
to enhance the capabilities we have for support of our 
warfighters. At the next level of detail, we have sought to 
ensure that the funds requested for S&T are guided by strategy 
objectives. The vision for the defense research and engineering 
program is to develop technology to defeat any adversary on any 
battlefield.
    This vision encompasses both state and nonstate actors as 
well as all potential fields of conflict from the physical 
battlefield to the cyberspace to other nontraditional 
battlefields. The vision is well aligned with the challenges 
outlined in the Quadrennial Defense Review. To realize this 
vision, we must apply several key requirements. First, the S&T 
program must be balanced to address near mid and far-term needs 
of the Defense Department. The Defense Department program must 
be robust and assure our proficiency across a broad spectrum of 
military and commercial technologies. Further, the S&T program 
must address urgent needs today while also assuring the Defense 
Department is prepared for the future.
    We must have an integrated research and engineering program 
as discussed earlier, frankly with contributions from the 
services and the agencies. The S&T program must deliver the 
maximum value for the tax dollar. We have reengineered our 
process for coordinating across the DOD S&T program. The new 
Reliance 21 process provides a renewed emphasis on integrating 
and coordinating the S&T investment of all--across all 
components and ensuring that the science and technology issues 
are addressed during the DOD budget cycle. Next, a program that 
contributes to the development of future science and 
engineering workforce. The Department of Defense employs almost 
half of all Federal physical scientists and engineers.
    Our work requires highly educated, technically experienced 
and security-clearable personnel. Programs such as the National 
Defense Education Program allow the Defense Department to play 
a necessary role in the Nation's efforts to recruit, educate 
and train our future scientists and engineers. Finally, a 
program that adapts to department needs and the threat 
environment. Guided by the QDR and Secretary's strategic 
planning guidance task and expert insights, the DDR&E team 
established a number of new initiatives within the S&T program 
focused on nontraditional DOD capabilities as well as DOD 
needs. I would like to briefly highlight a few of these 
efforts.
    The human social cultural and behavioral modelling 
initiative will give the Defense Department needed tools that 
can inform U.S. commanders, decision processes and provide aids 
to help their understanding of different nations' culture and 
infrastructure.
    Mr. Young. The QDR highlighted these lessons in stating 
current and future military operations will require enhanced 
capability to understand social and cultural terrains as well 
as various dimensions of human behavior.
    Biometrics capabilities are already being employed by the 
men and women who are daily engaged in the war on terrorism. 
Our initiative in this area will give these warfighters new 
biometric tools which are relevant to the unique demands of the 
tactical military environment. Tagging, tracking and locating 
will be an essential tool across the full spectrum of future 
conflict.
    Over the past year, the DDR&E and component staffs have 
been working with the U.S. Special Operations Command to define 
the future capabilities needed to tag, track and locate 
military platforms and individual adversaries. The resulting 
TT&L science and technology roadmap is funded in the budget 
before you.
    Beyond new capabilities, our robust Science and Technology 
Program has created opportunities to deliver mission-capable 
technology to the warfighter. Let me highlight a couple.
    Networking is now pervasive in our daily lives. The S&T 
networking initiative will identify opportunities to harvest 
new advances in military and, more importantly, commercial 
networking and communications technology to deliver greater 
network-centric capability to our warfighters sooner. The 
planned S&T investments will concentrate on network 
interoperability, improving capacity, adding bandwidth, and 
building networks in mobile tactical settings.
    The second initiative seeks to deliver low-cost airborne 
communications relays to support theater missions such as 
convoy movements. Today, in some cases, aircraft which can 
perform other surveillance missions are being pressed into 
service solely for communications-related missions.
    Energy use on the battlefield is an important logistics 
consideration. The DDR&E team led a task force which reviewed 
the Department's investment in energy programs. As a result, we 
worked with the services to include funds for pursuit of 
technologies that can increase the energy efficiency of our 
systems and reduce the battlefield logistics' demand for fuel 
and batteries.
    Finally, the rising costs and complexity of weapons systems 
continues to be a priority need for the Defense Department. The 
budget initiates a defense manufacturing technology, a science 
and technology effort to pursue the development of cost-
reducing manufacturing technologies.
    To leverage the Department's investment in super computers, 
the budget also includes funds to work in partnership with the 
services on a new generation of engineering design tools for 
military aircraft, naval ships and radar antennas to create an 
initiative which should enable the rapid development of 
optimized designs with fewer flaws in the design and better 
performance.
    Mr. Chairman, fortunately for this Nation, the DOD S&T 
program is a broad and comprehensive effort which I cannot do 
justice to in a short period of time. I appreciate the chance 
to highlight several key priorities, and I am most grateful for 
the Congress' strong support for the Defense Science and 
Technology Program. I look forward to the comments from my 
colleagues and the committee's questions.
    Mr. Smith. Thank you, and I appreciate the detailed 
testimony that you gave us in our booklet. You are right. It is 
too long to go into in formal testimony, but it is very helpful 
for us to have it in front of us. Thank you.
    [The prepared statement of Mr. Young can be found in the 
Appendix on page 39.]
    Mr. Smith. Dr. Killion.

STATEMENT OF DR. THOMAS H. KILLION, DEPUTY ASSISTANT SECRETARY 
            OF THE ARMY FOR RESEARCH AND TECHNOLOGY

    Dr. Killion. Thank you, Chairman Smith and other 
distinguished members of the subcommittee.
    I appreciate the opportunity to discuss with you the fiscal 
year 2008 Army Science and Technology Program and the 
significant role that S&Ts are playing in supporting the 
warfighters today and in achieving the Army's transformation.
    I have previously submitted a written statement for the 
record and request that it be accepted.
    I want to thank the members of this committee for your 
important role in supporting our soldiers who are at war today 
and for your support of the Army's S&T investments that will 
sustain technological preeminence for our future soldiers. Your 
continued support is vital to our success.
    Our Army S&T investment strategy seeks to mature and to 
deliver technologies that will enable a transformed, full-
spectrum future force, while seeking opportunities to spiral 
technology into current force systems to enhance today's 
capabilities. We maintain a diverse portfolio of technology 
investments to exploit the potential of emerging technology in 
the near term, while sustaining fundamental research to enable 
potentially paradigm-shifting technologies in the future.
    In terms of the focus of today's hearing, the Army S&T, per 
se, does not have major investments specifically targeted on 
counterproliferation. We are certainly investing in 
technologies that are relevant to the counterproliferation 
mission as it focuses on WMD such as sensors, communications, 
battle command, munitions and force protection, but, primarily, 
we are a significant partner with the Defense Threat Reduction 
Agency and with the joint PEO for chem/bio defense as the 
executive agent for major research programs and the source of 
an expert workforce and unique national facilities at our 
Edgewood chem/bio center as well as elements of the U.S. Army 
Medical Research and Materiel Command.
    As far as counterterrorism is concerned, it is not an 
overgeneralization to say that our entire program is relevant 
to the Army's mission to identify and defeat terrorist threats. 
We have all seen in the ongoing global war on terror, that 
defeating this threat is a full-spectrum mission, ranging from 
special operations to stabilization operations in the presence 
of an adaptive and aggressive insurgency to conventional 
warfighting against organized forces. Our Science and 
Technology Program seeks to enhance current capabilities and 
implement innovative solutions that will equip our soldiers 
with the tools to be victorious anywhere in this spectrum and 
beyond.
    I would like to emphasize two other points.
    First, just as the Army fights as part of the Joint Force, 
we in the S&T community collaborate with the other services and 
defense agencies to develop technologies jointly to achieve 
greater efficiency and speed in solving problems. A significant 
example here is our joint effort with the Air Force and OSD to 
develop joint precision airdrop systems for efficient force 
resupply.
    Second, while our focus is necessarily on the near- and 
mid-term, we must sustain our commitment to basic research for 
the next generation of warfighters. Our budget requests funds 
research across the science disciplines. However, we have also 
focused research in specific areas with high innovation 
potential such as nano science, biotechnology, immersive 
environments and network science, seeking unique and, in some 
cases, unanticipated applications for the future Army.
    In closing, I would like to thank you, Mr. Chairman, for 
the opportunity to testify before this subcommittee to sustain 
your support for Army science and technology investments. I am 
proud to represent the efforts of thousands of Army scientists 
and engineers dedicated to providing our soldiers with the best 
possible technology in the shortest possible time.
    I will be happy to answer any questions you or the members 
of the subcommittee may have.
    Mr. Smith. Thank you.
    [The prepared statement of Dr. Killion can be found in the 
Appendix on page 122.]
    Mr. Smith. Admiral Landay.

STATEMENT OF REAR ADM. WILLIAM LANDAY III, USN, CHIEF OF NAVAL 
                      RESEARCH, U.S. NAVY

    Admiral Landay. Chairman Smith, distinguished members of 
the subcommittee, it is an honor to appear before you today to 
update you on the progress of science and technology efforts 
within the Department of the Navy. I would like to thank the 
subcommittee for its interest and support in naval science and 
technology.
    I also have previously submitted my written testimony and 
request that it be entered into the record.
    The naval science and technology challenge is to enable 
revolutionary operational concepts that support the vision of 
the Navy and Marine Corps as laid out by the Secretary of the 
Navy, the Chief of Naval Operations and the Commandant of the 
Marine Corps. They envision a force that is joint, 
expeditionary, distributed, persistent, forward-deployed and 
capable of defeating a competitor in major combat operations or 
in various scenarios in the global war on terror.
    To meet this challenge, our S&T enterprise must focus on 
developing not only tomorrow's Navy and Marine Corps but also 
the one after that, yet be nimble enough to rapidly address 
critical problems addressing today's fleet and force, we must 
do three things exceptionally well.
    First, we focus on areas that provide the biggest payoff to 
support the Navy and the Marine Corps. Second, we must be 
innovative in our thinking, in our science and in our business 
processes, because every dollar spent in overhead is a dollar 
not spent on science and technology. Third, we must continually 
improve our ability to rapidly transition our science and 
technology efforts into acquisition programs and into the fleet 
and force.
    The fiscal year 2008 President's budget requests $1.67 
billion for an S&T portfolio that accomplishes what I have 
described. That reflects approximately a two percent growth in 
constant year dollars over the President's 2007 budget request.
    The Navy and Marine Corps leadership recently approved and 
updated a Naval Science and Technology Strategic Plan. It 
ensures the alignment of naval science and technology with 
naval missions, future capability needs and an evolving global 
technological landscape. It ensures that science and technology 
have a long-term focus but is responsive to the near-term 
warfighter needs.
    The S&T plan specifically identifies 13 key areas for 
science and technology investment that will have a high payoff 
in supporting the Navy's and Marine Corps' warfighting visions 
and needs. I have addressed those areas in my written 
testimony, so I will not list them here, but, in order to 
execute that strategy, we are focused on addressing the 
changing global S&T environment in the following ways:
    We must monitor, assess and leverage emerging science and 
technology in a global manner. The increasingly rapid movement 
of technology and innovation around the world demands that we 
be able to take advantage of emerging ideas in science, 
regardless of where they originate.
    We must maintain an investment portfolio that is balanced 
between the long-term scientific discovery that comes with the 
basic research program and the near-term focused product nature 
of the advanced technology development programs.
    We must focus on delivering value to today's sailors and 
Marines, while ensuring that the well of new and novel 
technology development remains deep in support of the next 
generation of sailors and Marines.
    Finally, we must focus our efforts on the transition of 
technology and innovative concepts to the warfighters. We are 
not about science and technology. We are about science and 
technology in support of our sailors and Marines.
    The Navy WMD detection program is developing technologies 
to detect smuggled nuclear weapons and WMD materials in a 
maritime environment. Our research benefits from a continuing 
partnership with the Defense Threat Reduction Agency, which is 
a silent member of the Senior Executive Service that works with 
us on specific naval applications and technologies that they 
are needing.
    Similarly, our Large Vessel Stopping Program will develop 
nonlethal technologies to provide the Navy the capability to 
stop and/or to restrain uncooperative, large marine vessels in 
support of search interdiction in counterterrorism operations.
    We have a near-term focus on Iraq and Afghanistan and a 
long-term focus on strengthening the Navy's ability to meet any 
challenge and to adapt to any security environment. We have 
made adjustments to our portfolio to address the emerging S&T 
needs of the Navy Expeditionary Combatant Command as it will 
shortly commit forces to the fight along the rivers in Iraq.
    We are moving away from functional roles and 
responsibilities toward a greater integration of capabilities, 
a more effective partnership between research and acquisition 
and a broader vision of how to achieve shared goals with DDR&E, 
the Army, DARPA, and the Air Force research organizations. This 
is evidenced by new directions in our Navy science and 
technology plan, by real increases in the President's 2008 
science and technology budget, and by the fact that 
approximately 15 percent of our research portfolio involves 
partnerships with other DOD organizations.
    I believe the state of our science and technology 
investment is sound and represents careful stewardship of 
taxpayer dollars and will make significant contributions to our 
warfighters as they serve in defense of the United States both 
today and well into the future.
    Thank you again for your continued support.
    Mr. Smith. Thank you very much, Admiral.
    [The prepared statement of Admiral Landay can be found in 
the Appendix on page 135.]
    Mr. Smith. Mr. Jaggers.

 STATEMENT OF TERRY J. JAGGERS, DEPUTY ASSISTANT SECRETARY OF 
 THE AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING, OFFICE 
           OF THE ASSISTANT SECRETARY FOR ACQUISITION

    Mr. Jaggers. Mr. Chairman, members of the subcommittee and 
staff, thank you. I, too, have submitted written testimony that 
includes a more expansive list of area force S&T activities, 
but for the purpose of this testimony I will submit my comments 
to the counterproliferation activities.
    I am pleased to have the opportunity to provide testimony 
on the fiscal year 2008 Air Force Science and Technology 
Program. As the Nation adapts to a new security environment 
filled with unconventional and nontraditional threats, so the 
Air Force adapts to fight the global war on terror and the 
proliferation of weapons of mass destruction. The Air Force 
continues to rebalance and to focus its core S&T competencies 
to aggressively pursue new technologies focused on countering 
these new threats of today, while modernizing our systems for 
tomorrow.
    Air Force leadership recognizes the value of its S&T 
program to provide a wide range of technology options to enable 
us to achieve our vision of becoming an integrated air, space 
and cyber force capable of rapid and decisive global engagement 
anywhere, anytime.
    This is exemplified in our fiscal year 2008 President's 
budget request, which at approximately $1.9 billion reflects a 
$66 million increase in core S&T funding. This translates to 
1.6 percent real growth from the previous year. These 
investments sustain a strong and balanced foundation of basic 
research, applied research and advanced technology development 
needed to support future warfighting capabilities.
    My written statement delves more deeply into ongoing 
research to counter traditional threats by reducing our 
dependence on foreign oil through the evaluation of alternative 
fuels, the development of improved engine technology such as 
the highly efficient embedded turbine engine and the adaptive, 
versatile engine technology, the interoperability between 
manned and unmanned vehicles, the launch of operationally 
responsive tactical spacecraft experiments, the development of 
airborne-directed energy capabilities, and research in both 
bio- and nano-inspired materials. Today, however, I would like 
to present our focused research efforts on counterproliferation 
and counterterrorism.
    Created in response to the Quadrennial Defense Review, our 
Air Force technical vision guided many of the counterterrorism 
and counterproliferation initiatives in this budget request. 
Born from the Air Force kill chain to find, fix, track, target, 
engage, and assess the enemy in a traditional theater, we have 
added ``anticipate'' to the front of this kill chain to inspire 
our scientists to develop new technologies that predict our 
enemies' intentions before they act and ``anything, anywhere, 
anytime'' to the end of the kill chain to focus the need for 
more research in the ``24x7'' tagging, tracking and locating of 
terrorists and WMD in what is now a global theater of war.
    Anticipating enemy actions is a difficult challenge. 
Working with the U.S. Special Operations Command, our Human 
Effectiveness Directorate has a program under way to apply 
mathematical techniques from economics, psychology, sociology, 
and market science to quantitatively assess and optimize the 
impact of information operations in an effort to anticipate 
enemy leadership intentions. They are conducting basic research 
to investigate the role of culture on cognition and behavior, 
applied research to create cultural research tools, and 
advanced technology development to demonstrate the decision-
aids, models and simulations required by the warfighter.
    We are proud to be leading DOD in this area; and our 
researchers, along with those of the Army and Navy, have worked 
closely with DDR&E in developing their human social, cultural, 
and behavioral modeling program, a program which complements 
ongoing efforts to fund areas the services have not yet had the 
resources to cover.
    In addition, our Sensors and Information Directorates are 
collaborating on near-term efforts to improve command and 
control, intelligence, surveillance, and reconnaissance by 
using closed-loop simulation capabilities to better predict our 
adversary's actions. By exploiting data from multiple network 
sensors, providing object-tracking and identification, 
including data fusion and global change detection techniques, 
this effort will allow automated, predictive identification and 
the tracking of space, air and ground vehicles with ultra-high 
confidence.
    Efforts funded within our basic research program at the Air 
Force Office of Scientific Research are already yielding 
exciting results in counterterrorism and proliferation. AFOSR 
started funding a University of California San Diego effort in 
fiscal year 2002 to study photoluminescence quenching effects 
in certain polymers to understand how these effects might be 
used in integrated nano sensors to strengthen our warfighter's 
ability to anticipate threats and acts of terror.
    A by-product of this basic research--and I, too, have a 
little show-and-tell that I would like to bring up. A by-
product of this basic research contributed to the development 
of a low-cost and robust improvised explosive device detection 
sensor, currently being commercially marketed for use in field 
settings such as security checkpoints at airports, stadiums and 
amusement parks.
    Sir, I will pause at my written point here to explain what 
that is. You have seen in the security checkpoints in the 
airports that they take a swab and they wipe down your hands 
and then they put it in a large machine that is not on wheels, 
but it is a very expensive and large, relatively immobile 
machine. All of that is contained in that device, and what that 
does basically is--you take, more or less, a lint brush, which 
Tim just pulled out, and you wipe it on people and their hands 
and their clothes, and then you stick the paper in that. And, 
in the field, they can look through that binocular port there 
and actually get not a spectral signature of the material or 
the chemical residue but actually see a go/no go or a pass/
fail. So it is very portable, lightweight, and it is actually 
available in the commercial market, too. Actually, the work we 
did in the basic research led to the production of that by 
DARPA, and that is how we are getting it to the field.
    Equally challenging is the ability to prosecute the kill 
chain against targets anywhere, anytime. This requires research 
in tagging, tracking and locating terrorists or WMD anywhere on 
the globe ``24x7.'' One such project that could facilitate 
tracking by using unmanned aerial vehicles is called Synthetic 
Interface Research for UAV Systems, or SIRUS. This research in 
human effectiveness will enhance an operator's ability to 
acquire, assess and act on information.
    A supporting research program is leading to the development 
of a multi-sensory modeling database that will provide 
automatic target recognition and combat identification 
enhancements to improve Blue Force tracking as well as the 
capability to enable future covert targeting and tracking by 
the year 2011.
    In addition, we are exceptionally proud of our research in 
biotaggants as a transformational technology to 
counterproliferation and acts of terrorism. Biotaggants attach 
either a passive-identifying material, or taggant, to a 
biological warfare agent that can then be read by line-of-sight 
spectroscopy or an active taggant that is activated by radio 
frequency energy so it can be read through walls. In the 
future, use of these biotaggants will revolutionize our ability 
to track WMD around the globe.
    In the near term, however, our Sensors Directorate rapidly 
developed the Angel Fire electro-optical staring array. 
Deploying with the Marine Corps this year, Angel Fire is an 
airborne wide-area, image-gathering, persistent electro-optical 
sensor array that distributes real-time imagery straight to the 
warfighter. Angel Fire provides the capability to zoom in and 
observe more closely any area within the collected image cone 
as well as allows the playback of significant events, 
essentially providing a ``Google Earth, TIVO-like'' capability 
to monitor areas of interest.
    On September 6th, 2006, the Secretary and the Chief of 
Staff of the Air Force directed the establishment of a new 
operational command for cyberspace. The cyber technologies we 
are developing within our Information Technology Directorate 
will provide this new command with capabilities similar to 
those developed for conventional Air Force employment, such as 
strike or reconnaissance systems. This research not only 
postures us to combat traditional threats in cyberspace but 
those emerging unconventional threats as well.
    Technologies being developed include cyber platforms with 
the mission of destroying worms or viruses, thus bolstering our 
information assurance capabilities. An example of this is the 
Air Force Research Laboratory's Defensive Cybercraft, which 
essentially acts as a defensive intelligence, surveillance and 
reconnaissance asset to not only defend against attacks but 
begin to locate and track terrorists and other bad actors that 
choose to wage war in the cyber domain.
    Coupled with the aforementioned game-changing research in 
directorate energy, nano technology, hypersonics, and 
biotechnology, the Air Force's S&T investments in cyberspace 
will position us well to counter future disruptive threats 
facing the Nation.
    The initiatives I have described will not be without their 
challenges. The Air Force S&T program is in a time of great 
change as we reshape our scientist and engineer workforce, 
retool our processes under the Secretary's Air Force Smart 
Operations 21 Initiative, understand the S&T required to meet 
the demands of the cyberspace mission, and move toward a 
capability based planning construct using focused, long-term 
challenges, or FLTCs.
    Despite the challenges facing the Air Force S&T, we are 
emboldened to tackle these challenges head on as we prosecute 
the global war on terror and counterproliferation. Our fiscal 
year 2008 budget builds on the past S&T successes and our 
traditional core competencies, a future tech vision with a 
clear focus on counter and new security threats and reflects my 
five guiding S&T principles: first, to value our scientists and 
engineers; second, to ensure a balanced portfolio between the 
near, mid and far term; third, to focus our investments on 
needed capabilities; fourth, to honor commitments with our 
mission partners; and, fifth, to continue to hone and improve 
our tech transition processes.
    Air Force leadership has shown their commitment to the Air 
Force S&T program by, again, maintaining positive real growth 
of the S&T budget, and we feel we are investing in those areas 
critical to the Nation's defense.
    Mr. Chairman, thank you again for the opportunity to 
present testimony, and thank you for your continued support for 
the Air Force S&T program.
    Mr. Smith. Thank you very much.
    [The prepared statement of Mr. Jaggers can be found in the 
Appendix on page 153.]
    Mr. Smith. I appreciate all of your testimony.
    I have a couple of quick questions, and then I will turn to 
Mr. Thornberry.
    First of all, Mr. Jaggers, you mentioned in your testimony 
you are conducting research to investigate the role of culture 
and the predictive modeling of societies. What does that mean 
exactly? Could you explain that program a little bit more?
    Mr. Jaggers. What we are trying to do--and we are doing 
this, actually, in collaboration with the DDR&E as well as 
other services, as well as a larger interagency community, 
including the intel community, as well as the warfighters.
    The competency that the Air Force brings to bear on this is 
our Human Directorate that really builds on past experiences 
and successes with modeling human behavior of pilots, looking 
at fatigue, looking at the human effectiveness of our pilots 
during long-duration missions and that sort of thing. We take 
those models that we have done in those areas plus the 
expertise of psychology and try to understand the cultural 
differences in other societies and create models based on 
mathematical algorithms and statistics to try to predict the 
behavior of other cultures. The competency we bring to the 
larger community is obviously leveraged by others to support 
the intel community and others.
    What we hope to get from this larger activity here is 
trying to understand what action an enemy may take as a 
predictive signal or cue to tip us off on to what they might 
take as far as a counter-error or anything that would harm or 
put our air assets or any Air Force assets at risk of threat. 
So this is part of our technology vision of anticipating enemy 
actions, working with OSD and others to try to see the cues and 
the tip-offs, but based on----
    Mr. Smith. That answers my question. Thanks. I appreciate 
it.
    There is something Mr. Killion mentioned--it might have 
been Mr. Young--about developing manufacturing technologies to 
help reduce the time frame that it would take. That is 
something that I think would be enormously helpful.
    As you know, we have--pick your favorite program and start 
calculating how long it has taken to develop it. It is 
enormously frustrating, not to mention enormously expensive, 
and some of this--I mean, Joint Strike is trying to push the 
outer laws of physics, which are more flexible than most people 
realize; and, you know, that is fine, but there are some other 
things that--it seems like we ought to be able to come up with 
our fighter planes, our ships, our big ticket items, airplanes 
quicker than we are.
    Is there some hope here that we are going to be able to 
take that maybe from 20 years down to 10, or how is that 
playing out specifically?
    Mr. Young. Boy, I would agree with your desire for hope.
    I am hesitant to advertise it as such, but some of the 
initiatives I mentioned are targeted to that. The tool I 
mentioned will seek to build models where now you can design an 
aircraft ergonomically and then go into a structural model and 
optimize the structure. We have efforts that usually take hard 
manufacturing problems and apply technology to making timelines 
shorter, the costs lower. We would like to take a step back and 
invest in a more general space, just like we do in materials or 
electronic devices. We would like systems to come faster and be 
lower cost.
    Mr. Smith. And I think a lot of that also is a decision--
the further we can sort of narrow the range of what is 
possible--because you do want to push the envelope. You want to 
try to come up with the best piece of equipment you can. You 
want to test some theories out. We can test those quicker. That 
is not going to work. We are not going to go down that route. 
We are going to focus here. That would be enormously helpful.
    Mr. Young. Could I add one more comment?
    Mr. Smith. Certainly.
    Mr. Young. Maybe we will say the same thing.
    Within that space, one thing that takes time is the amount 
of software and capability we put in systems these days; and so 
across all of the services we are looking at initiatives here 
to better reuse tools. We have already done the auto generate 
code, all of the steps that will let us develop more code with 
fewer flaws in it, because that is a significant timeline in 
our efforts, and Army Secretary Bolton and Tom have been 
leaders in saying we need to work on that space. The DDR&E team 
wants to work in that space. I think all of the services are 
inclined.
    Dr. Killion. What I was going to mention is not that area.
    It is a real challenge for us. The initiatives we have 
taken are in our specific programs where we would combine an 
investment in the technology development with an investment in 
manufacturing technology. A good example there is our Flexible 
Display Center at Arizona State University where we are 
partnered through them with industry, and not only are they 
exploring the boundaries of what we can do in terms of 
developing displays that are flexible like this sheet of 
paper--high brightness and lower power and so on--but also the 
manufacturing methodologies and tools that would go into 
building such displays at an affordable cost and at a 
production scale. So at the same time you are developing the 
technology, you are optimizing the methods by which you could 
produce it.
    Mr. Young. Maybe I could briefly respond.
    Congress asked us, as we take programs into the system's 
design and development phases, to make sure the technology is 
ready, which is exactly your comment, Mr. Chairman.
    We intend to apply also what Tom mentioned, manufacturing 
readiness, so the DDR&E team is already providing that 
information to the Under Secretary of Defense for the 
acquisition of technology readiness so that, hopefully, those 
phases will take less time and cost less. Because we again, 
from another angle, brought mature technology and the ability 
to produce that technology to that problem.
    Mr. Smith. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    I want to get back to a topic. You all were here when we 
were talking about the importance of getting and keeping top 
quality people to work in facilities. My understanding is that 
there are, in some facilities at least, demonstration projects 
which grant extra flexibility in the hiring and in the 
evaluating of employees and that when the new national security 
personnel system comes into effect that the way it works now is 
that these facilities can take whatever is the most flexible in 
order to manage that workforce and hopefully get and keep the 
kind of people we want.
    If all of that is right, how many facilities have these 
demonstration programs--and do you all have an opinion about 
this intersection between the new national security personnel 
system and the demonstration programs that they already have?
    Admiral Landay. Well, I would start off, at least from the 
perspective of the Navy.
    Our Naval Research Lab, for example, is under one of the 
lab demonstration programs, and I think it is doing exactly 
what you would like to have as it gives the commander and the 
technical director of that lab greater flexibility not only in 
rewarding the performance of folks in the lab based on their 
contribution but some additional flexibility. It is probably 
not as much as they would like in order to be able to hire and 
bring folks on board.
    My headquarters, the O&R part of that, is under the current 
standard government service; and I can tell you from where I 
sit they are two completely different worlds. I envy the guy's 
ability who works for me to do things that I would like to be 
better able to do, so whether that is national security or 
other lab demos, I think moving in that direction is a 
significant benefit.
    My sense is we have looked between the national security 
personnel program and the lab demos. I think we are still 
wrestling because the lab demos tend to be more comfortable to 
the labs because the labs have been doing them for a while, and 
they are comfortable with them. I think the context of all of 
them are the same, and so I think that was really the intent.
    I will tell you that one of the challenges is you would 
like people to be able to move back and forth between 
organizations. I would like to bring people from my labs into 
headquarters. I would like people from my labs to go work in 
Army labs and be able to hire Army lab people in my labs, and 
if we all get multiple different personnel systems, that 
sometimes becomes a real challenge for us. So, you know, having 
a very common system, I think, is critical, but flexibility, I 
think, we are all very much supporters of.
    Mr. Thornberry. I will be interested to know what other 
facilities, if you all could provide for the record, have a 
demonstration project; and if you have an opinion about those 
flexibilities and how they will be impacted by the new national 
security personnel system, I would appreciate it.
    Mr. Young, the Office of Force Transformation was largely 
folded into your organization. I do not expect an answer now, 
but can you get somebody to provide the committee what happened 
to programs that they had under way once it got folded into 
DDR&E so that I can see what happened to those specific 
initiatives?
    Mr. Young. We will get you a longer answer, but what I want 
to assure you is that every program they had continues, and I 
put them with one of the stronger people on my team, Ben Riley, 
who has managed a lot of our counterterrorism and rapid 
reaction response efforts and is working with them to continue 
what they are doing and working with them to vet, if you will. 
As a first stage of new ideas they have, we expect that program 
to continue.
    Mr. Thornberry. Good. I would appreciate the more detailed 
answer, but I appreciate your answer here.
    Mr. Thornberry. Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thank you. I just had a couple more questions 
before we wrap up.
    One of the things Mr. Thornberry said at the outset is that 
the overall fiscal year 2007 budget for the Science and 
Technology and the DOD, I believe, is maybe down a little. It 
sounds like the Air Force is up from 2007, but just, you know, 
we ramped up for a couple of years because of the global war on 
teror (GWOT).
    An acceptable answer is that there are needs elsewhere, and 
we all have about 35 top priorities around here, and that is 
part of the problem. But just within your own little world, 
very important world, where do you see that money being in a 
flat budget line as proposed in 2008?
    Mr. Young. I am probably the right person to start, and I 
would refer back to my initial comments. There has been eight 
percent real growth since 2002, and we are historically in 
constant dollars at a period of time of the highest level of 
R&D investment in general.
    I believe the leadership comment, which I agree with, would 
be we have to size the S&T investment to meet the needs of the 
Department, so I do not know if a metric that says three 
percent or two percent is right. I know we are beginning to 
look at that, and I have asked my team to take a look at that.
    I can cite for you an example. I asked Dr. Tether to take a 
look, and we find that we have selected 20 percent of the 
selectable proposals, but I do not think we have enough 
fidelity to tell you those 20 percent are the absolute A-plus 
proposals and the next ones are all Bs or the next ones are all 
Cs, so we need to get better metrics and build the program from 
the bottom up.
    This year, I am very pleased we were able to move over 
across the Future Year Defense Program (FYDP), up over $1 
billion, into these newer technology areas where we needed 
investment in human social, cultural, behavioral, biometrics, 
tagging, tracking, locating. I would be less comfortable if I 
were to tell you that money limits prohibited us from investing 
in those areas, because we have those investments, and the 
services continue to make those core investments that they must 
make in engine technology or emissions technology, and the Army 
grew their emissions investment.
    I think the program is whole, and then we end up back with 
you, to your point, that we do not have enough metric data to 
tell you if we desperately need another dollar or if we had 
another dollar we would spend it well or if we had another 
dollar we would spend it on a B or C effort.
    Mr. Smith. Does anybody else want to----
    Dr. Killion. I would echo what John says in that I believe 
we are, of course, challenged in terms of the fiscal 
environment we are in. We are at war. I am supporting an Army 
that is engaged all over the globe in terms of the S&T program, 
and how much the Army has available to invest in S&T as opposed 
to other considerations in the budget is always a challenge. I 
think we are making smart investments today. We have tried to 
balance the portfolio as best we can, protect our basic 
research program and, very reasonably, it is about 18 percent 
of our S&T program.
    Another consideration is in terms of what you really want 
to be able to do at the end of the day, which is transition the 
technology coming out of S&T. So just plugging up the S&T 
budget is not going to help us very much. Yes, you will have 
more things in the mill, but you also need to be able to take 
that and turn that into real systems that go into the hands of 
the troops, and that is the part of the equation that has to be 
addressed.
    Admiral Landay. If I may add to that, I would agree. We 
have had this discussion very aggressively, probably, in the 
last year in the Navy as we have been looking through all of 
the science and technology. There is a need to have some basic 
level of very broad science and technology, because nobody can 
tell you with 100 percent clarity what the problems are going 
to be 5 and 10 years down the road.
    The challenge, of course, is we could make that so broad 
and so deep that, you know, the things that you have to do in 
the near term you cannot do. So Secretary Young said, I think, 
we all struggle with how much is enough and how do you know you 
are at least focusing in the right broad areas.
    The other challenge that we have, as Dr. Killion mentioned, 
is, in the end, it has all got to transition, so there is a 
real effort to look at science and technology but focus it on 
those areas that you think really do support the Department or 
your particular department.
    I think the thing we all wrestle with the most, as 
Secretary Young said, is not do you have enough, but when new 
areas emerge do you have the ability to get into those new 
areas while you are continuing to do work in the good science 
areas. I think that is what we all really, really focus on.
    Mr. Jaggers. And I will be brief, because my comments 
certainly reflect the comments of my peers here.
    The Air Force, as you know, is modernizing virtually 
everything in the Air Force from space to air; and the trick, 
as Dr. Killion said, is trying to balance the S&T that supports 
the modernization of those assets and ensuring that, in the big 
Air Force, some of that Air Force investment can handle the 
through-put of the S&T being pushed to the modernization 
programs.
    Then the other trick, as Admiral Landay said, is trying to 
pursue transformational or revolutionary technologies and then 
balancing that tech push with, again, a through-put to handle 
that tech push or directed energy, for example, trying to 
understand the effects of directed energy and create platforms 
that can handle directed energy.
    So, in the Air Force, we are fortunate to actually be on an 
upward slope for S&T investments, but I think that reflects, 
quite frankly, on the overall modernization strategy in the Air 
Force.
    Mr. Smith. I think you should submit a more formal answer 
on your budget situation. Not now. Just have your staff sort 
of, you know, get into some of those details on the funding of 
the A programs and the B programs. If you could have someone 
send that over to the committee, that would be great.
    The last area I want to ask about--it is a quick question 
that might have a long answer--is alternative energy. In each 
of your areas, what are you investing in in terms of finding 
alternative sources but also in improving efficiencies? I think 
the greatest area this is in is batteries, you know, improving 
battery life. What is sort of, you know, right there that could 
help us in those areas?
    Mr. Young. Let me offer--certainly I will be brief and will 
tell you the energy task force that the DDR&E team led--and the 
real leader of the team, Al Shaffer, is behind me--looked 
across all of the services at everything in the Department, 
including facilities work. I think we could submit for the 
record the investments we identified that were in the budget 
for those programs, and then we identified gaps and 
opportunities and needs, and we put some new initiatives in the 
budget, which we can identify for you, also.
    Mr. Smith. Why don't we do that? Because this is the kind 
of thing that could be a very long answer. If you could just 
submit to the committee, to my office--you know, somebody from 
your office--here is what we are doing on alternative sources 
of energy and increasing energy efficiency. I think that would 
be probably the best way to do it.
    Mr. Smith. Mrs. Drake, do you have questions?
    Mrs. Drake. I just have one question, Mr. Chairman.
    Mr. Young, thank you for being here, and I am sorry I could 
not be here for the whole meeting.
    But there are plans to terminate the Medical Free Electron 
Laser Program in fiscal year 2008. Can you provide us with a 
good rationale for the abrupt termination of this program, 
especially in light of all of the discussion that we are having 
right now about making sure we have absolutely the best care 
for our wounded warriors?
    Mr. Young. I can add for the record, but I will give you a 
quick summary of it. It fits with the discussion we had.
    At the start of this budget season, my office was handed a 
bogey to cut about $35 million and about $300 million across 
the FYDP within the programs that are strictly within DDR&E 
cognizance, and then there were new things I was asked to do or 
felt we needed to do for the warfighter. So when you do that, 
you have to go through and cut things, and several things were 
trimmed. We trimmed basic technology demonstrations (TDs). We 
trimmed several projects.
    This one we cut because, at this stage in time, we have 
been investing in medical free electron lasers for 25 years 
now, and we spent over $400 million on this program. I think we 
need to ask ourselves whether we should continue in that vein 
or open the door to a different idea of what we need to do in 
that area. The program is being done. There are quality 
programs. Some of them address combat casualty care. Some of 
them address basic medical technology. Because it is far beyond 
now the medical free electron laser. Some are not even laser-
related.
    So there are programs in the Department, particularly in 
the Army, some in the Navy, and medical advanced technology 
where these entities could compete, and they could compete to 
provide solutions for combat casualty care that might or might 
not--you know, in their case might involve laser technology or 
might not, but it would be open to other spaces. But limiting 
this program to the providers under the guise of the medical 
free electron laser I felt we needed to move beyond after 25 
years and $400 million.
    Mrs. Drake. I guess, Mr. Chairman, it just leaves in my 
mind the medical reason you would do that and how it is going 
to impact our troops that we are not going to have this program 
that we had for 25 years, and we are not going to have this 
type of treatment that we have had for 25 years.
    So, obviously, you have looked at that and feel comfortable 
that this is an okay thing to do and that we are not removing 
something that our men and women would need?
    Mr. Young. Well, again, as I cited, we have several medical 
technology programs that invest in a broad set of solutions to 
our medical issues where their ideas are the best ideas. They 
should compete and offer those solutions. They can also compete 
within the National Institute of Health budget that has grown 
by something like 100 percent, but at some point in time, the 
Defense Science and Technology Program needs to move on to 
other technology instead of being limited to a certain area and 
a certain set of technologies.
    You could rightly discuss whether we need more money in 
combat casualty care, given the situation we find ourselves 
engaged in in the war, but even then I would advocate it ought 
to be open to every technology that can address those issues 
and not limit it to a set of people who work from medical free 
electron perspectives.
    Mrs. Drake. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Smith. Thanks.
    Mr. Thornberry, do you have anything further?
    Mr. Thornberry. No.
    Mr. Smith. Well, thank you very much for your testimony. I 
look forward to continuing to work with you as we move through 
on our authorizing the budget. Thank you. It has been very, 
very informative. I appreciate it.
    With that, we are adjourned.
    [Whereupon, at 4:39 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 21, 2007

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 21, 2007

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
